No. 19-1189
IN THE

Supreme Court of the United States
BP P.L.C., ET AL., PETITIONERS
v.
MAYOR & CITY COUNCIL OF BALTIMORE, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
SUPPLEMENTAL BRIEF OF RESPONDENT
Victor M. Sher, Counsel of Record
Matthew K. Edling
Martin D. Quiñones
Sher Edling LLP
100 Montgomery St., Suite 1410
San Francisco, CA 94104
(628) 231-2500
vic@sheredling.com
matt@sheredling.com
marty@sheredling.com

Dana P. Moore
Suzanne Sangree
Baltimore City Law Department
100 N. Holliday Street, Suite 109
Baltimore, MD 21202
(443) 388-2190
law.danapmoore@baltimorecity.gov
suzanne.sangree2@baltimorecity.gov

Counsel for Respondent – Mayor & City Council of Baltimore

SUPPLEMENTAL BRIEF FOR RESPONDENT
Pursuant to Supreme Court Rule 15.8, Respondent Mayor & City Council of
Baltimore (“City”) submits this Supplemental Brief to inform the Court of the recent
decision of the United States Court of Appeals for the Tenth Circuit in Board of
County Commissioners of Boulder County v. Suncor Energy (U.S.A.) Inc., __ F. 3d __,
No. 19-1330, 2020 WL 3777996 (10th Cir. July 7, 2020) (“Boulder”). The opinion in
Boulder issued after Respondent City submitted its Brief in Opposition to the Petition
for Certiorari, and is discussed briefly in Petitioners’ Reply Brief. Reply Br. 3–5, 7.
The Tenth Circuit in Boulder embraced the prevailing view, now shared by
nine circuits, that “when a district court issues a remand order premised on a
§ 1447(c) ground, [the court of appeals is] empowered to review that order only to the
extent it addresses the removal bases explicitly excepted from § 1447(d)—in this case,
removal under 28 U.S.C. § 1442.” 2020 WL 3777996 at *17. The Boulder decision
further supports Respondent City’s showing that there is no “real or substantial split
of authority sufficient to warrant certiorari review” concerning the limited scope of
appellate jurisdiction under 28 U.S.C. § 1447(d). See Br. in Opp. 4; see also id. at 9–
19. Because there is no significant split of authority requiring this Court’s
intervention, the Petition should be denied.
1.

The Boulder defendants, which included Petitioner ExxonMobil Corp.,

removed the case from Colorado state court asserting seven separate grounds for
removal, including jurisdiction under the federal officer removal statute, 28 U.S.C.
§ 1442. 2020 WL 3777996 at *2. The district court granted the plaintiffs’ motion to

1

remand pursuant to 28 U.S.C. §1447(c), rejecting all seven jurisdictional grounds for
removal and finding that subject-matter jurisdiction was lacking. Id. The defendants
appealed, asking the Tenth Circuit to consider all their rejected grounds for federal
subject-matter jurisdiction rather than solely their federal-officer removal arguments
under Section 1442. Id.1 The Tenth Circuit thus faced the precise question presented
by Petitioners: whether “the exception in § 1447(d) permitting review of federal officer
removal under 28 U.S.C. § 1442 creates appellate jurisdiction to consider all of [the
defendants’ other] asserted removal bases.” Id.
The Tenth Circuit first noted that the although the majority of circuits “hold
that a remand order premised on a § 1447(c) ground is reviewable only to the extent
it addresses a § 1442 (federal officer) or 1443 (civil rights) removal argument,” “the
Seventh Circuit fractured this unanimity on the scope of appellate review created by
§ 1447(d)” and permitted broad review of the entire remand order in Lu Junhong v.
Boeing Co., 792 F.3d 805 (7th Cir. 2015). Boulder, 2020 WL 3777996 at *4.2 The court

The Boulder defendants sought a stay of the remand order pending appeal, by
motion to the Tenth Circuit and by Application to Justice Sotomayor as Circuit
Justice for the Tenth Circuit, both of which were denied. See Bd. of Cty.
Commissioners of Boulder Cty. v. Suncor Energy (U.S.A.), Inc., No. 19-1330 (10th Cir.
Oct. 17, 2019) (denying stay pending appeal); Suncor Energy (U.S.A.), Inc. v. Bd. of
Cty. Commissioners of Boulder Cty., No. 19A428 (Oct. 22, 2019) (same).
1

The court also acknowledged cases in the Fifth and Sixth Circuits applying the rule
from Lu Junhong, which it observed were inconsistent with other case law from those
same circuits. See id. at *4 n.7; Decatur Hospital Authority v. Aetna Health, Inc., 854
F.3d 292, 296 (5th Cir. 2017); Mays v. City of Flint, 871 F.3d 437, 442 (6th Cir. 2017).
As Respondent City explained in its opposition brief, the Decatur Hospital Authority
and Mays cases are of questionable validity at best and have no precedential weight
even within the Fifth and Sixth Circuits, because they contradict prior settled
authority within those circuits. See Br. in Opp. 15–18. The law in the Fifth and Sixth
Circuits follows the prevailing view, not the position that Petitioners advocate.
2

2

then performed a thorough analysis of the text, context, history, and purposes of
Section 1447(d), see id. at *5–*17, and concluded that “the proper construction of the
statute is the narrower one adopted by the majority of federal circuits,” which extends
appellate jurisdiction only to those grounds for removal explicitly exempted from the
statute’s general bar on review. Id. at *17. The court repeatedly cited the opinion of
the Fourth Circuit in this case, see id. at *3, *4, *8, *9, *14, *16, finding its “analysis
persuasive,” id. at *9, and adopting it over the outlier reasoning in Lu Junhong.
2.

The Boulder ruling makes clear that this Court’s intervention is not

needed to resolve the Question Presented. In the three months since Petitioners filed
their Petition, two more circuit courts of appeal squarely addressed the Question
Presented in this case, and the unanimous panels in both cases fully agreed with the
Fourth Circuit here. See Boulder, 2020 WL 3777996 at *17; Cty. of San Mateo v.
Chevron Corp., 960 F.3d 586, 595–98 (9th Cir. 2020) (applying prevailing review and
dismissing appeal “for lack of jurisdiction to the extent” it challenged “the district
court’s ruling as to other bases for subject-matter jurisdiction” than federal officer
removal). The Fourth Circuit’s holding in this case is identical to the holdings of nine
of the ten circuits to have addressed the issue, three of which have now specifically
rejected the reasoning of the Seventh Circuit’s outlier 2015 decision. There is no true
split of authority to resolve, and no reason for this Court to grant the Petition.

Dated: July 22, 2020

Respectfully Submitted,
/s/ Victor M. Sher
Victor M. Sher

3

